Department of Homeland Security
   Ofﬁce of Inspector General

             DHS Continues to Face Challenges in the 

              Implementation of Its OneNet Project 





OIG-11-116                                      September 2011
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                   September 28, 2011

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of the DHS’ management of the
consolidation of its wide area network, known as OneNet. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Frank Deffer
                                      Assistant Inspector General
                                      Information Technology Audits
Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................5 


     Progress Made in Implementing OneNet .......................................................................5 


     Improvements Needed for Transition to the OneNet .....................................................7 

     Recommendations ........................................................................................................11 

     Management Comments and OIG Analysis ................................................................11 



Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................13 

     Appendix B:           Management Comments to the Draft Report .......................................14 

     Appendix C:           Major Contributors to this Report ........................................................15 

     Appendix D:           Report Distribution ..............................................................................16 


Abbreviations
     AHRP                  Application Hosting Reverse Proxy
     CBP                   U.S. Customs and Border Protection
     CIO                   Chief Information Officer
     CONOPS                Concept of Operations
     DHS                   Department of Homeland Security
     DOD                   Department of Defense
     EOC                   Enterprise Operations Center
     FEMA                  Federal Emergency Management Agency
     FLETC                 Federal Law Enforcement Training Center
     FY                    fiscal year
     HAG                   High Assurance Gateway
     HQ                    headquarters
     ICE                   U.S. Immigration and Customs Enforcement
     IPv6                  Internet Protocol Version 6
     ISA                   interconnection security agreement
     IT                    information technology
     ITP                   Information Technology Infrastructure Transformation Program
     LCCE                  life cycle cost estimate
     MOA                   memorandum of agreement
     MPLS                  Multiple Protocol Label Switching
     NOC                   Network Operations Center
     OIG                   Office of Inspector General
     OCIO                  Office of Chief Information Officer
OMB     Office of Management and Budget
PEP     Policy Enforcement Point
ROI     return on investment
RTIC    redundant trusted Internet connection
SOC     Security Operations Center
TIC     Trusted Internet Connection
TSA     Transportation Security Administration
USCIS   United States Citizenship and Immigration Services
USCG    United States Coast Guard
USSS    United States Secret Service
VPN     virtual private network
WAN     wide area network
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                    In 2005, the Department of Homeland Security began to
                    consolidate and transform its existing individual component
                    networks into a single world-class information technology
                    infrastructure. To achieve this goal, the OneNet Infrastructure, an
                    enterprise-wide integrated information technology network, was
                    created. The goal of OneNet is to create a reliable, cost-effective
                    information technology infrastructure platform that supports the
                    ability to share data among components. We reviewed the
                    Department’s efforts to consolidate component networks to
                    OneNet. Our objective was to determine the progress the
                    Department is making in meeting its OneNet objectives.

                    The Department has made some progress toward consolidating the
                    existing components’ infrastructures into OneNet. Specifically, it
                    has established a centralized Network Operations Center/Security
                    Operations Center incident response center. Further, components
                    are signing memorandums of agreement and converting their sites
                    to the Multiple Protocol Label Switching architecture in
                    accordance with OneNet requirements. Finally, the Department
                    has established the redundant trusted Internet connection that
                    provides a redundant network infrastructure and offers essential
                    network services to its components.

                    However, the Department needs to make a number of
                    improvements in order to implement the OneNet architecture.
                    Specifically, it needs to establish component connections (peering)
                    to OneNet and ensure that all components transition to the
                    redundant trusted Internet connection. Further, it needs to
                    complete required project management documents, and update
                    interconnection security agreements.

                    We are recommending that the Department of Homeland Security
                    Chief Information Officer complete the transition and connection
                    (peering) of the components and develop and implement key
                    planning documents and applicable agreements to OneNet.




         DHS Continues To Face Challenges in the Implementation of Its OneNet Project 


                                            Page 1
 

Background
                           On July 31, 2005, the Department of Homeland Security (DHS)
                           approved the charter for the Information Technology Infrastructure
                           Transformation Program (ITP). The ITP represents the
                           Department’s full-scale move toward a DHS-consolidated
                           information technology (IT) infrastructure supporting the cross-
                           organizational missions of protecting the homeland, deterring
                           crime, detecting and countering threats, and myriad other
                           responsibilities. As part of the process, DHS began to consolidate
                           its components’ existing infrastructures into a single wide area
                           network (WAN), known as OneNet.

                           The Department’s goal for OneNet is to facilitate the ability of all
                           DHS components to share data by integrating component networks
                           into a single network. To achieve this goal, DHS selected U.S.
                           Customs and Border Protection (CBP) as the network services
                           steward to maintain and operate OneNet and its original legacy DHS
                           Core Network. As the network steward, CBP is responsible for
                           developing and coordinating with other components to consolidate
                           their existing infrastructures with OneNet. Next, components
                           converted their sites to the Multiple Protocol Label Switching
                           (MPLS)1 technology to provide DHS networks with enhanced
                           redundancy, survivability, and reliability. Finally, DHS adopted a
                           multilayered security approach by creating the Enterprise
                           Operations Center (EOC), consisting of the Network Operations
                           Center (NOC) and the Security Operations Center (SOC).

                           The concept of OneNet is to provide network segmentation
                           between components to protect mission-critical information. To
                           encourage an enterprise network solution throughout, DHS
                           established Trust Zones to protect component data that cannot be
                           shared with other components. Policy Enforcement Points (PEPs)
                           were established to protect the security policy of the Trust Zones
                           and allow for the sharing of services and information among the
                           components. Figure 1 illustrates component Trust Zones and their
                           respective connections to OneNet.




1
 MPLS is an architecture for fast packet switching and routing that provides the designation, routing,
forwarding, and switching of traffic flows across a network through the use of simple, fixed-length labels.



               DHS Continues To Face Challenges in the Implementation of Its OneNet Project
 


                                                   Page 2
 

                                                                                      ICE T
                                                                                          Trust
                                                                                           rust          TSA
                                                                                        Zone
                                                                   TSA                          CBP Trust Zone
                                                                Trust Zone                   Trust Zone                 FEMA
                                                                                                                      Trust Zone


                                                                                                                                          Remote
                                                                                                                                          Access
                                        S&
                                         &T
                          DN
                           ND O         Sub
                           Sub                     I&
                                                    &A
                                        Zone
                                          ne
                          Zone
                             ne                   Sub
                                                                                                                                               Internet
                   NPPD
                                                  Zone
                                                     ne
                                                                                                                     RTIC
                    Sub
                   Zone
                     ne
                                   DHS-HQ                                      PEP                 PEP                                              Extranet
                                  Trust Zone
                   OIG
                   Sub

                                                                                     OneNet                                         Partner
                   Zone
                     ne
                                                US Visitt
                           OP
                            PS
                                                 Sub                                                                               Networks
                                       IT
                                        TO       Zone
                                                   ne
                           Sub
                                      Sub
                           Zone
                             ne
                                      Zonne
                                          e




                                                                                                                                               US-CIS
                                     USSS                                                                                                     Trust Zone
                                   Trust Zone
                                                                                                                 ICE Trust Zone
                                                             FLETC                     USCG
                                                            Trust Zone               Trust Zone




                                  Figure 1. Trust Zone Model

                                  DHS also implemented the Office of Management and Budget’s
                                  (OMB’s) Trusted Internet Connection (TIC) initiative as part of the
                                  OneNet project. The TIC initiative helps to improve the
                                  government’s security posture and incident response capability by
                                  reducing and consolidating the number of external connections.
                                  To comply with the OMB TIC initiative, DHS created the DHS
                                  redundant trusted Internet connection (RTIC).2 With the exception
                                  of the United States Coast Guard (USCG), all components must
                                  route their Internet traffic through the RTIC. USCG, as a branch
                                  of the armed forces, has been approved to use the Department of
                                  Defense (DOD) network to access the Internet. The RTIC
                                  provides four standard services:

                                                Outbound Internet – Public Internet access for the DHS
                                                community that is secure and policy controlled;
                                                Application Hosting – Infrastructure for the secure hosting
                                                of DHS resources, applications, servers and Web services
                                                to the public user community;
                                                Remote Access Virtual Private Network (VPN) – Secure
                                                remote access for DHS personnel to access mission-critical
                                                resources from remote locations, home, or designated
                                                disaster sites; and




2
 The DHS redundant trusted Internet connection is a certified and accredited DHS system operating in the
two DHS data centers.



               DHS Continues To Face Challenges in the Implementation of Its OneNet Project


                                                                     Page 3

                                             Extranet Connections – Secure infrastructure for direct
                                             encrypted connection to participating government agencies
                                             and the commercial and trade community.

                                Figure 2 illustrates the RTIC services and connection to OneNet.


                                  Extranet


                        VPN

                                                            RTIC
                                                                           OneNet
                     Internet
                                                                                                    Components



                    Application
                     Hosting




                                Figure 2. OneNet Diagram With RTIC Services

                                The OneNet life cycle cost estimate (LCCE) is $704 million per
                                the 2011 Network Services LCCE. The project’s capital
                                investment estimates were made on the assumption that 3,759 sites
                                will be transitioned from component legacy WANs to OneNet by
                                fiscal year (FY) 2015. The project includes the procurement of
                                hardware (routers and switches), software (intrusion detection),
                                and engineering services (capacity management).

                                In 2005, the DHS OneNet project had a projected return on
                                investment (ROI) of 192% over a 10-year period. In 2011, DHS
                                revised the OneNet’s projected ROI downward to 67.3% over 10
                                years. According to the ITP program director, a number of OMB
                                and DHS mandates have increased the operating and maintenance,
                                and capital investment costs of the OneNet project. Specifically,
                                increased costs to implement the RTIC, PEPs, and Internet
                                Protocol Version 6 (IPv6)3 contributed to the lower ROI for the
                                project (see figure 3).




3
  Because the current Internet protocol (Internet Protocol Version 4) has run out of addresses, agencies need
to transition to IPv6. IPv6 will support a practically unlimited number of addresses worldwide.




               DHS Continues To Face Challenges in the Implementation of Its OneNet Project
 


                                                        Page 4
 

                                                           ROI Projections 

                                                    300%




                        Percent of Return
                                                    200%
                                                    100%
                                                      0%
                                                   -100%
                                                   -200%
                                                                                    Total
                                                                   2005   2010
                                                                                   change
                                            ROI Projections        192%   67.30%   -124.70%


                    Figure 3. OneNet Return on Investment


Results of Audit 

     Progress Made in Implementing OneNet
           DHS continues to make progress toward achieving its OneNet goals.
           Specifically, DHS has established a centralized NOC/SOC incident
           response and reporting capability in order to manage the network and
           resolve computer and network issues. Additionally, DHS components
           continue to be actively involved in supporting the transition to OneNet by
           signing memorandums of agreement (MOAs) and converting their sites to
           MPLS architecture. Finally, in June 2009, DHS established the RTIC to
           provide essential network services to DHS components.

                    Centralized NOC/SOC Services

                    DHS developed a NOC/SOC architecture consisting of a
                    centralized NOC/SOC and several component-level subordinates.
                    The central or Enterprise SOC and NOC provide management
                    services and oversight of the DHS OneNet. Each component
                    NOC/SOC is responsible for its individual watch areas or Trust
                    Zones. The DHS Enterprise NOC/SOC provides guidance and
                    coordination for component NOC/SOCs, which perform the
                    majority of network and security incident monitoring and
                    detection. The EOC manages the resolution of security network
                    incidents in the corresponding domains of responsibility, network
                    functionality, and security.




         DHS Continues To Face Challenges in the Implementation of Its OneNet Project
 


                                                              Page 5
 

                            Component Progress

                            DHS components are also making progress in moving to the
                            OneNet architecture. For example, all but three of the nine DHS
                            components have signed MOAs with CBP to obtain network and
                            security services. As the OneNet steward, CBP has elected not to
                            prepare an MOA. MOAs are important because they identify the
                            terms and conditions covering the services DHS will provide to
                            components through OneNet. The MOAs include information on
                            all OneNet core devices such as the Network Switching Nodes,
                            policy enforcement points, RTICs and WAN devices. Table 1
                            provides the status of component MOAs.

                            Table 1. Component Status of MOA
                               Component        Signed MOAs         No MOAs
                              CBP                                       X
                              DHS HQ                  X
                              FEMA                    X
                              FLETC                   X
                              ICE                     X
                              USCIS                   X
                              TSA                                        X
                              USCG4                   X
                              USSS                    X


                            Additionally, all components have converted their sites to the
                            MPLS architecture. The MPLS technology enables DHS and its
                            components to read and access the audit trails captured on firewall
                            and intrusion detection devices.

                            RTIC Improvements

                            The RTIC is a redundant network infrastructure that provides
                            essential OneNet services (Internet, extranet, VPN, and application
                            hosting) to support all DHS components. In FY 2009, DHS
                            installed the second RTIC at Data Center Two in Clarksville,
                            Virginia; the first is located in Data Center One in Stennis,
                            Mississippi. The addition of a second trusted Internet connection
                            creates an infrastructure that is housed at two high-availability,
                            totally redundant and geographically diverse data centers. It was
                            built using a flexible framework, industry best practices, DHS
                            system engineering life cycle process, and National Institute of

4
    USCG is exempt from the OneNet migration efforts because it uses the DOD network.



                 DHS Continues To Face Challenges in the Implementation of Its OneNet Project


                                                    Page 6

              Standards and Technology guidelines. The RTIC employs a
              layered approach that provides a high level of security, monitoring,
              and accountability, as depicted in figure 4.



                                           Intrusion Detection
                                            Systems/ Intrusion            Data Loss
                      Firewalls            Protection Services           Prevention



              Figure 4. Layered Approach of the RTIC

              The RTIC also provides a redundant path, using multiple carrier
              vendors, to provide adequate security protection controls
              commensurate with the security requirements of the services
              provided.

              DHS has made several improvements to the RTIC at both
              locations. Currently, it is planning and implementing cyber-
              security enhancements known as the High Assurance Gateway
              (HAG) and the Application Hosting Reverse Proxy (AHRP). HAG
              will allow the components to access information in a secure virtual
              environment, providing access to social media sites or otherwise
              prohibited contents sites that they currently cannot access. HAG
              also allows users (components) to browse the Internet through an
              enhanced firewall or a virtually hosted environment that helps to
              protect the user’s workstation from malicious attempts to infiltrate
              the system. AHRP will enable components that cannot afford to
              move their applications to either of the two data centers to run
              these applications remotely from their legacy data centers. AHRP
              will also provide application layer access to Web and application
              servers.

Improvements Needed for Transition to the OneNet
     DHS needs to make a number of improvements to ensure transition to
     OneNet. Specifically, DHS and CBP need to—

              Complete the establishment of component connections (peering) to 

              OneNet; 

              Ensure that all components transition to the RTIC; 

              Complete required project management documentation; and 

              Update interconnection security agreements.
 



   DHS Continues To Face Challenges in the Implementation of Its OneNet Project


                                      Page 7

           Peering to OneNet Is Not Complete

           All DHS components must be peered (connected) to OneNet in
           order for each component’s transition to be complete. Sites peered
           to OneNet represent the number of sites associated with the OneNet
           domain. At present, only two components have peered all of their
           sites to OneNet, and the remaining seven components identified the
           lack of PEPs as the primary reason for their delayed transition to
           OneNet. PEPs support controlled cross-communication between
           component Trust Zones, as shown in figure 5.



        ICE Trust Zone                                                            TSA Trust Zone


                               Policy Enforcement Point (PEP)




             Firewall    IIntrusion
                           ntrusion   Packet
                                      Packet       Data
                                                   Data    Outbound
                                                           Outbound   Malware
                                                                      Malw are     Firewall
                         Detection    Capture      Loss     Proxy     Detection
                           System               Prevention




           Figure 5. Components of Policy Enforcement Points

           DHS components have established different and unique levels of
           IT security policies, along with PEPs to enforce these policies. In
           response, DHS’ OneNet project management team revised its
           originally planned infrastructure to meet the components’ mission
           driven needs and requirements. DHS Sensitive Systems Policy
           Management Directive 4300A and the corresponding handbook
           were also revised in FY 2009 to include requirements for PEPs in
           OneNet services. Finally, DHS’ security architecture was revised
           to require that PEPs be implemented to separate the Trust Zones.




DHS Continues To Face Challenges in the Implementation of Its OneNet Project
 


                                       Page 8
 

           Transition to the RTIC Is Not Complete

           Not all DHS components have completely transitioned to the
           RTIC. As of February 2011, two components—the Federal Law
           Enforcement Training Center (FLETC) and DHS headquarters—
           have completed transition (see table 2). Three of the remaining
           seven components have signed waivers with extension dates until
           2012 to defer their transition to the RTIC. The Transportation
           Security Administration (TSA), United States Citizenship and
           Immigration Services (USCIS), and United States Secret Service
           (USSS) have not completed their respective transitions and waivers
           have not been granted. Waivers are required because RTIC
           services are mandated by OMB. USCG is exempt because it has
           elected to use the DOD network.

           Table 2. Component Status on RTIC Transition

             Components       Completed        Signed Waivers      No Waivers     Exempted
            CBP                                      X
            DHS HQ                 X
            FEMA                                     X
            FLETC                  X
            ICE                                      X
            USCIS                                                       X
            TSA                                                         X
            USCG                                                                     X
            USSS                                                        X

           All components except USCG must route all Internet traffic
           through the RTICs.

           DHS Has Not Developed Several Key Planning Documents for
           the OneNet Project

           DHS has not developed several key planning documents for the
           overall OneNet project. Specifically, DHS has not prepared a
           Concept of Operations (CONOPS) for the OneNet and the RTIC
           projects. DHS did develop an ITP Program CONOPS that
           provides a brief and limited description of how DHS expects to
           plan and develop its network services infrastructure under OneNet.
           According to DHS Management Directive 102-01, Revision 01,
           Section 5, a CONOPS describes how DHS components would use
           the desired capability to fulfill its operations.




DHS Continues To Face Challenges in the Implementation of Its OneNet Project
 


                                   Page 9
 

           Additionally, DHS has not updated and revised its project
           management plan to reflect the added OMB mandates and
           cybersecurity enhancements. The most recent project plan for
           OneNet, Version 1.6 (dated March 2011), did not include an
           integrated project master schedule; work breakdown structure; or
           information on the RTICs, PEPs, and cybersecurity devices.
           According to the DHS interim System Engineering Life Cycle
           Guide, Version 2.0, Appendix B of the Acquisition
           Instruction/Guidebook 102-01-001, an integrated master schedule
           should include project resourcing, discrete work packages, internal
           and external dependencies, and critical paths. The development
           and approval of key planning documents is essential to the success
           of a project this size. Management should ensure that all planning
           documents are finalized and approved.

           Interconnection Security Agreements Are Needed

           DHS requires that all interconnections to DHS OneNet be
           documented using an interconnection security agreement (ISA).
           Components must complete a master ISA, which includes all
           transitioning systems, as part of their initial OneNet transitions.
           According to DHS Sensitive Systems Policy, an ISA should be—

                    Described in sufficient detail to serve as a sound basis for
                    approving a system-to-system connection;
                    Signed by the authorizing official prior to operating the
                    associated connection;
                    Established in accordance with National Institute for
                    Standards and Technology Special Publication 800-47;
                    Required whenever the security policies of the
                    interconnected systems are not identical or the systems are
                    not administered by the same entity/authorizing official;
                    Reissued every 3 years or whenever significant changes
                    have been made to any of the interconnected systems; and
                    Reviewed by component personnel as part of the annual
                    Federal Information Security Management Act of 2002
                    self-assessment.

           However, OneNet ISAs are not current for all components.
           Specifically, three DHS components (Federal Emergency
           Management Agency [FEMA], DHS headquarters [HQ], and
           USSS) did not have OneNet ISAs, three components (TSA,
           FLETC, and USCG) had expired ISAs, and three components




DHS Continues To Face Challenges in the Implementation of Its OneNet Project
 


                                  Page 10
 

           (Immigration and Customs Enforcement [ICE], CBP, and USCIS)
           had current signed ISAs (see table 3).

           Table 3. ISAs Received per Component
            Components        Current Signed ISAs       Up for Renewal       No Documents
           TSA                                                 X
           USSS                                                                   X
           USCG                                                 X
           FEMA                                                                   X
           ICE                          X
           FLETC                                                X
           CBP                          X
           HQ                                                                     X
           USCIS                        X


           ISAs should be prepared between DHS and each component and
           between each component and its trade partners.


  Recommendations
           We recommend that the DHS Chief Information Officer:

           Recommendation #1: Complete the transition and connection
           (peering) of components to OneNet.

           Recommendation #2: Develop, approve, and implement key
           planning documents, network service agreements, and
           interconnection security agreements.


  Management Comments and OIG Analysis
           We obtained written comments on a draft of this report from the
           DHS Office of Chief Information Officer (OCIO). We have
           included a copy of the comments in their entirety in appendix B.
           Generally, the OCIO agreed with our findings and
           recommendations.




DHS Continues To Face Challenges in the Implementation of Its OneNet Project
 


                                  Page 11
 

           Recommendation #1

           The OCIO concurs with Recommendation 1. The OneNet project
           team is working with each component to complete migrations and
           associated projects. This recommendation will remain open until
           the OCIO provides documentation to support that corrective
           actions are completed.

           Recommendation #2

           The OCIO concurs with Recommendation 2. The OneNet project
           team plans to update and revise its project management plan and
           develop a CONOPS. Additionally, the OneNet team will complete
           and update all MOAs and ISAs. This recommendation will remain
           open until the OCIO provides documentation to support that
           corrective actions are completed.




DHS Continues To Face Challenges in the Implementation of Its OneNet Project
 


                                  Page 12
 

Appendix B
Purpose, Scope, and Methodology

                      The objective of our review was to determine the progress that DHS
                      has made in consolidating components’ existing infrastructure into
                      the OneNet project. Specifically, we determined whether (1) DHS
                      achieved its program management goals and target milestones for
                      OneNet; (2) DHS and its components experienced any cost savings
                      with the implementation of OneNet, and (3) DHS adequately
                      addressed security concerns over OneNet.

                      We interviewed selected personnel at DHS headquarters and
                      components facilities in the Washington, DC, area. In addition, we
                      reviewed and evaluated DHS security policies and procedures,
                      OneNet project plans and security architecture, the ITP charter,
                      and other appropriate documentation.

                      We conducted this audit between February and June 2011 pursuant
                      to the Inspector General Act of 1978, as amended, and according
                      to generally accepted government auditing standards. Those
                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis for
                      our findings and conclusions based upon our audit objectives. We
                      believe that the evidence obtained provides a reasonable basis for
                      our findings and conclusions based upon our audit objectives.
                      Major OIG contributors to the audit are identified in appendix D.

                      The principal OIG points of contacts for the evaluation are Frank
                      Deffer, Assistant Inspector General, Office of Information
                      Technology, at (202) 254-4041 and Sharon Huiswoud, Director
                      Information Systems Audit Division, at (202) 254-5451.




           DHS Continues To Face Challenges in the Implementation of Its OneNet Project
 


                                             Page 13
 

Appendix B
Management Comments to the Draft Report



                                                                                     Lr-'-_"O-'-'_
                                                                                     .'...._ oc ",'"


                  S£P 0i     Ian                                                     Homeland
                                                                                     Security
         MEMORA~DU'>lFOR'                 Fnlnillefi<.t
                                          ."'';''Illl! In,~o< Goneco.l 10< 1'I Auei"
                                          Ri,hudA. S,il'<, ~
                                          Chiof joform>ti~d••:: _

         SUBJECT'                         OJG·ll.{l4(l.ITA·),jGMT, rJHS C~oti""'S '" f"", C..,II,.p"          in Jh,
                                          l",pI,,,,,"'atkm of i" o...N" hoj.",

         'I ht llepartm<•.<of Ilo""hnd s.<l>i<)' (Ill IS, Off"" oltho Co,efJnfo",ution O'-lie". (OCIOj has
          "",....0<1 Ill< f.nd.n~ oftl>< dJ,ft OffICe of tk I n , _ Gene,,] (OIG) Rqon 11-040·ITA·
         MG-Ml, IJJ/S COIlti",,,,, '0   f()(:.   CI>aU""" '" ,n,. I",pi,,,","'_ of~·< O»o,~." P,oj'ct. ",k,~",,1
         Jul)' 2g, 2'lll. OCIO'"",poo"" 10 OlG', <tm\ ""o","'C"d.>tion, Me ~ f"l~"....~,

         II""om."n4otion ~J: Co'"riele ,r" .... "';00 :nl C<lnnectiOll ipc~) of oompo<>.--nt, '" On;;l'ct.

         1lI1~   ll.. j>lI• ..., A.go" IDlI: DelO 00Ilrut:S.

         Tt~ Onel<et project ""'1>g'D"'" t<>rn i' "Qrl<jr.~ "'i:h =h Ccmpol>CIlt '" C<l"'pIc1c milO"1k>n.1 onJ
         ...od,t<d proj«to, "'ch .. til< Policy Enfcrcomc'" Pob" (PEP.) ..-.d Ro\"CnC Prox}', wJudi ..ill
         ..,;" Component rnii!'l'tlo= CICIO ha, tarl't«l tIIC >erorol <u>rWr "fF}" 2012 fox c",'pl<ti"ll oll
         tramition lID:! "''"''''"'ti;m of Cornpon<n'" to OoI:I\'e1.

         R..omm'n401i\HI ~l: De""lop. "j¥0"', 0l:IIl implctn<ot l:cy planniow do<LIII'.lO, .......·or. ,en'i",
         ogre<1nellto, aM intcroonocctio. "c,,,IIi.,.. o17<crncots,
         DH~     rtlponoe, An=nn lOll: UCiO ooncun,
         The 0",1'001 Prnj<cr T=n ,.ill updatc on;! rcrisc ito pr<Ji«t """"'1= pI,n "' ,d,," c'Uffi"lJl
         UMII    nw>d"", ...
                          --.I c~'t>crncoun')' cnI-'=="lt', llr r<"is<d rlao ....ill incl"'" "" lnI"l1rolooJ proj<:'1
         mast",   ","'dol,
                         tha1 ,cl1<ct, projoo r<>oor<ifll, di=.1e      "Of' _l.¥',    ;,11<m:IJ on4 ""1e""'1
                                                                                  ;.r""""ioo "" ''''
         dqlcn<!"",i"" on4 crilicol p,lli.>, Hc ,,,.;,.,,] pion ..-ill .'" ir<ol..J<                  RTIC•• PEP"
         aM oll ')'\><"""un')' do¥'"-",, OCJO boo ""~et<d lh< fi'" ~ ....rt<t of 1'1>"", Y.... (I'Y) 2m 2 fo'
         c"mr',"n~ II>< ,evi.,.j On<'1", f"Oicct .. ~"""'"' f'l""-

         Tho 0rr<1<<I "'"'" .. ill ,I", ,omplete .nd updlll< all \t<lI"IOI'>I1d. of A~IHf1le""(MOM) bet..~rn
         IJIlS ..,j "",h Cem"",","t, ond ,]1 1nt<f<<<U>eCtloo s.c."ity Al:"""l""" (lSA,) Ixt"",," • ..,h
         C ~ t <Uld j", lrOde ;wtn<". 0<:10 110, WI""'" 11-0< fi'" q""""r of n' 2012 for compk1in~ and
         up:!otina 011 MOA, ... ISA,.

         A<id~l"""ll)',
                      <he 0n0'J.. t<<IIn "ill d,...l"" • Conocr< ofOpcntion' (CO'lOPS) f,~ o".,»fet 'ha
         iodndc, the ki:<!und4nl TNlt«llnt<>T.'" C""ocction <RTIC) ..pal>il~y onil """ "'""nlo:, hoC",
         Coml"J'l<'" ....,Ill "'" 'Il< c'I"'l'H,y w fol fill Lh.;- "I""";''''' ocm I... L<r~""'<l ~"' ><c"".1 ~"""",.
         ufFY WI2 '"" """'plel;n~ <h< COI<OI'S




           DHS Continues To Face Challenges in the Implementation of Its OneNet Project
 


                                                       Page 14
 

Appendix C
Major Contributors to this Report

                      Sharon Huiswoud, IT Audit Director
                      Sharell Matthews, IT Audit Manager
                      Beverly Dale, Team Leader
                      Anthony Nicholson, Senior IT Auditor
                      Robert Durst, Senior Program Analyst
                      Frederick Shappee, Program Analyst
                      Swati Nijhawan, Referencer




           DHS Continues To Face Challenges in the Implementation of Its OneNet Project
 


                                             Page 15
 

Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Information Officer
                      Deputy Chief Information Officer
                      CIO Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




           DHS Continues To Face Challenges in the Implementation of Its OneNet Project
 


                                             Page 16
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
